APPENDIX A:
Pelino v. Superintendent Greene SCI, Case No. 18-2481 (3d Cir. Apr. 2, 2020)

Case: 18-2481

Document: 64-1

Page: 1

Date Filed: 04/02/2020

ALD-125

February 27, 2020

UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
C.A. No. 18-2481
VITO A. PELINO, Appellant
v.
SUPERINTENDENT GREENE SCI; ET AL.
(W.D. Pa. Civ. No. 2-16-cv-00796)
Present:

MCKEE, SHWARTZ and PHIPPS, Circuit Judges
Submitted are:
(1)

Appellant’s request for a certificate of appealability under 28 U.S.C.
§ 2253(c); and

(2)

Appellant’s motion to supplement the record

in the above-captioned case.
Respectfully,
Clerk
________________________________ORDER_________________________________
Pelino’s request for a certificate of appealability is denied. See 28 U.S.C.
§ 2253(c). Jurists of reason would not debate that, for essentially the reasons that the
District Court provided in the June 5, 2018 memorandum, Pelino was not entitled to relief
on his Fed. R. Civ. P. 60(b) motion. See Slack v. McDaniel, 529 U.S. 473, 484 (2000);
Morris v. Horn, 187 F.3d 333, 341 (3d Cir. 1999). More specifically, to the extent that
Pelino presented claims that “attacked the federal court’s previous resolution of a claim
on the merits,” his putative Rule 60(b) motion constituted an unauthorized second or
successive 28 U.S.C. § 2254 petition. Gonzalez v. Crosby, 545 U.S. 524, 532 (2005)
(emphasis omitted). He also alleged that the District Court failed to address one of his
claims, but he could have raised that argument on appeal, and “[a] request for relief

Case: 18-2481

Document: 64-1

Page: 2

Date Filed: 04/02/2020

pursuant to Rule 60(b) cannot be used as a substitute for an appeal.” Morris, Morris v.
Horn, 187 F.3d 333, 343 (3d Cir. 1999) (alteration omitted) (quoting Rolo v. City
Investing Co. Liquidating Trust, 155 F.3d 644, 653 (3d Cir. 1998)). Finally, while Pelino
argued that he should be able to overcome his procedural default under Martinez v. Ryan,
566 U.S. 1 (2012), jurists of reason would agree with the District Court’s conclusion that
it had previously “reached the merits of Petitioner’s claims and thus his PCRA counsel’s
ineffectiveness need not serve as a method to excuse procedural default.” Mem. at 3.
Pelino’s motion to supplement the record is also denied. See generally Burton v. Teleflex
Inc., 707 F.3d 417, 435–36 (3d Cir. 2013).
By the Court,
s/Patty Shwartz
Circuit Judge
Dated:
MB/cc:

April 2, 2020
Christina M. Hughes, Esq.
Rusheen R. Pettit, Esq.

Case: 18-2481

Document: 64-2

Page: 1

Date Filed: 04/02/2020

OFFICE OF THE CLERK

PATRICIA S. DODSZUWEIT

CLERK

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
21400 UNITED STATES COURTHOUSE
601 MARKET STREET
PHILADELPHIA, PA 19106-1790

TELEPHONE

215-597-2995

Website: www.ca3.uscourts.gov

April 2, 2020
Christina M. Hughes, Esq.
National Habeas Institute
810 7th Street, N.E.
Washington, DC 20002
Rusheen R. Pettit
Allegheny County Office of District Attorney
436 Grant Street
Pittsburgh, PA 15219

RE: Vito Pelino v. Superintendent Greene SCI, et al
Case Number: 18-2481
District Court Case Number: 2-16-cv-00796
ENTRY OF JUDGMENT
Today, April 02, 2020 the Court issued a case dispositive order in the above-captioned matter
which serves as this Court's judgment. Fed. R. App. P. 36.
If you wish to seek review of the Court's decision, you may file a petition for rehearing. The
procedures for filing a petition for rehearing are set forth in Fed. R. App. P. 35 and 40, 3rd Cir.
LAR 35 and 40, and summarized below.
Time for Filing:
14 days after entry of judgment.
45 days after entry of judgment in a civil case if the United States is a party.
Form Limits:
3900 words if produced by a computer, with a certificate of compliance pursuant to Fed. R. App.
P. 32(g).
15 pages if hand or type written.
Attachments:

Case: 18-2481

Document: 64-2

Page: 2

Date Filed: 04/02/2020

A copy of the panel's opinion and judgment only.
Certificate of service.
Certificate of compliance if petition is produced by a computer.
No other attachments are permitted without first obtaining leave from the Court.
Unless the petition specifies that the petition seeks only panel rehearing, the petition will be
construed as requesting both panel and en banc rehearing. Pursuant to Fed. R. App. P. 35(b)(3),
if separate petitions for panel rehearing and rehearing en banc are submitted, they will be treated
as a single document and will be subject to the form limits as set forth in Fed. R. App. P.
35(b)(2). If only panel rehearing is sought, the Court's rules do not provide for the subsequent
filing of a petition for rehearing en banc in the event that the petition seeking only panel
rehearing is denied.
Please consult the Rules of the Supreme Court of the United States regarding the timing and
requirements for filing a petition for writ of certiorari.
Very truly yours,
Patricia S. Dodszuweit, Clerk
By: s/ Marianne
Legal Assistant
267-299-4911

APPENDIX B:
Pelino v. Gilmore, Case No. 2:16-CV-796 (W.D. Pa. Jun. 5, 2018)

Case 2:16-cv-00796-RCM Document 59 Filed 06/05/18 Page 1 of 7

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF PENNSYLVANIA
VITO PELINO,
Petitioner,
vs
ROBERT GILMORE, et al.,
Respondents.

)
)
)
)
)
)
)

Civil Action No. 16-796

ORDER
Petitioner, Vito Pelino, has filed a motion for relief from judgment pursuant to Rule
60(b)(1) and 60(b)(2) (ECF No. 47). Respondents have submitted a response (ECF No. 58) and
the motion is ripe for disposition. For the reasons that follow, it will be dismissed and, because
reasonable jurists could not conclude that a basis for appeal exists, a certificate of appealability
will be denied.
Petitioner had filed a counseled petition for writ of habeas corpus on June 14, 2016. On
July 6, 2017, the Court entered a Memorandum Opinion and Order (ECF No. 35) which
concluded that Petitioner’s claims were procedurally defaulted and also meritless.
On August 5, 2017, Petitioner filed a counseled notice of appeal and the Court of Appeals
for the Third Circuit docketed it as C.A. No. 17-2717. On September 21, 2017, Petitioner filed a
Motion to Expand the Record, which asked the court to consider an affidavit from his PCRA
counsel, Paul Gettleman, in which Gettleman “conceded” his ineffectiveness. On February 5,
2018, the Court of Appeals entered an order denying Petitioner’s request for a certificate of
appealability. The court stated that:
For substantially the reasons given by the Magistrate Judge, [Petitioner] has not
made a substantial showing of the denial of a constitutional right nor shown that
reasonable jurists would find the correctness of the Magistrate Judge’s procedural
determinations debatable. See 28 U.S.C. § 2253(c)(2); Slack v. McDaniel, 529

Case 2:16-cv-00796-RCM Document 59 Filed 06/05/18 Page 2 of 7

U.S. 473, 484 (2000). [Petitioner’s] motion to expand the record is denied
without prejudice to [his] seeking any relief that may be available under Federal
Rule of Civil Procedure 60.
(C.A. No. 17-2717, order dated Feb. 5, 2018).
On February 9, 2018, Petitioner’s counsel filed a motion to withdraw, which the Court of
Appeals granted on February 26, 2018. Petitioner filed a pro se motion for rehearing, which the
Court of Appeals denied on April 6, 2018.
On March 5, 2018, Petitioner filed a pro se motion under Rule 60(b) in this Court. On
May 31, 2018, Respondents filed reply in opposition (ECF No. 58).
In the brief in support of his motion, Petitioner contends that this Court made numerous
factual and legal errors in dismissing his habeas corpus petition. Specifically, he argues that: 1)
the Court used post hoc rationalization to justify the Commonwealth’s prejudicial statement in
the closing argument; 2) the Court failed to address his claim of ineffectiveness for failure to
impeach the Commonwealth’s key witness; 3) the Court erroneously stated that he failed to
present any evidence that trial counsel was aware of certain witnesses at the time of trial; 4) the
Court erroneously stated that the affidavit of DeDominicis that he presented was not before the
trial or appellate courts when it was in fact before them; 5) the Court held that his claims were
procedurally defaulted when he presented evidence that his PCRA counsel was ineffective for
failing to raise these claims; 6) the Court cited Greer v. Miller, 483 U.S. 756, 765 (1987), without
noting that in that case defense counsel did object to the prosecutor’s prejudicial remarks and the
judge gave a curative instruction, unlike in his case; and 7) he presents newly discovered
evidence in the form of an affidavit from his PCRA counsel, who admits his ineffectiveness and
thereby would allow his previously defaulted claims to be reviewed de novo.
2

Case 2:16-cv-00796-RCM Document 59 Filed 06/05/18 Page 3 of 7

Petitioner claims that he relies upon Rule 60(b)(1) and 60(b)(2). However, Rule 60(b)(1)
refers to relief based on: “mistake, inadvertence, surprise, or excusable neglect” and Rule
60(b)(2) refers to relief based on “newly discovered evidence that, with reasonable diligence,
could not have been discovered in time to move for a new trial under Rule 59(b).” Neither
provision is applicable to this case. With respect to Rule 60(b)(1), some courts have held that
legal error without more cannot be corrected under Rule 60(b) and others have held that legal
error may be characterized as a “mistake,” but only where the motion is made within the time
allowed for appeal. Page v. Schweiker, 786 F.2d 150, 154-55 (3d Cir. 1986). Petitioner did not
file his motion within the thirty-day period allowed for appeal. Therefore, he cannot raise legal
error in a Rule 60(b)(1) motion now.
With respect to “newly discovered evidence,” it consists of an affidavit of his PCRA
counsel in which counsel admits his ineffectiveness. However, this evidence would not have
changed the outcome of the proceeding because the Court reached the merits of Petitioner’s
claims and thus his PCRA counsel’s ineffectiveness need not serve as a method to excuse
procedural default.1
Rule 60(b) also allows a court to relieve a party from a final judgment, order or
proceeding based on, inter alia, “any other reason that justifies relief.” Fed.R.Civ.P. 60(b)(6). In
Gonzalez v. Crosby, 545 U.S. 524 (2005), the question presented was whether, in a habeas case,
Rule 60(b) motions are subject to the additional restrictions that apply to “second or successive

1

The Court of Appeals indicated that Petitioner’s motion to expand the record to include his
PCRA counsel’s affidavit was denied without prejudice to him seeking any relief that may be
available under Rule 60. This Court has determined that, even considering the affidavit,
Petitioner has not demonstrated that he is entitled to relief.
3

Case 2:16-cv-00796-RCM Document 59 Filed 06/05/18 Page 4 of 7

habeas corpus petitioner under [AEDPA]...” and concluded, “a subsequent change in substantive
law is a reason justifying relief from the previous denial of a claim ... such a pleading, although
labeled a Rule 60(b) motion, is in substance a successive habeas petition and should be treated
accordingly.” 545 U.S. at 531. The Court stated that:
In most cases, determining whether a Rule 60(b) motion advances one or
more “claims” will be relatively simple. A motion that seeks to add a new ground
for relief, as in Harris [v. United States, 367 F.3d 74 (2d Cir. 2004)], will of
course qualify. A motion can also be said to bring a “claim” if it attacks the
federal court’s previous resolution of a claim on the merits,4 since alleging that the
court erred in denying habeas relief on the merits is effectively indistinguishable
from alleging that the movant is, under the substantive provisions of the statutes,
entitled to habeas relief. That is not the case, however, when a Rule 60(b) motion
attacks, not the substance of the federal court’s resolution of a claim on the merits,
but some defect in the integrity of the federal habeas proceedings.5
4

The term “on the merits” has multiple usages. See, e.g.,
Semtek Int’l Inc. v. Lockheed Martin Corp., 531 U.S. 497, 501503, 121 S.Ct. 1021, 149 L.Ed.2d 32 (2001). We refer here to a
determination that there exist or do not exist grounds entitling a
petitioner to habeas corpus relief under 28 U.S.C. §§ 2254(a) and
(d). When a movant asserts one of those grounds (or asserts that a
previous ruling regarding one of those grounds was in error) he is
making a habeas corpus claim. He is not doing so when he merely
asserts that a previous ruling which precluded a merits
determination was in error--for example, a denial for such reasons
as failure to exhaust, procedural default, or statute-of-limitations
bar.
5

Fraud on the federal habeas court is one example of such a
defect. See generally Rodriguez v. Mitchell, 252 F.3d 191, 199 (2d
Cir. 2001) (a witness’s allegedly fraudulent basis for refusing to
appear at a federal habeas hearing “relate[d] to the integrity of the
federal habeas proceeding, not to the integrity of the state criminal
trial”). We note that an attack based on the movant’s own conduct,
or his habeas counsel’s omissions, see, e.g., supra, at 2647,
ordinarily does not go to the integrity of the proceedings, but in
effect asks for a second chance to have the merits determined
favorably.
4

Case 2:16-cv-00796-RCM Document 59 Filed 06/05/18 Page 5 of 7

Id. at 532.
In United States v. Doe, 810 F.3d 132, 152 (3d Cir. 2015), the Court observed that a
petitioner’s diligence is an “important factor” in differentiating a true 60(b) motion from a
successive habeas petition. In addition, to warrant relief from a judgment under Rule 60(b)(6),
“extraordinary circumstances” must be demonstrated, which are rarely established in a habeas
corpus case. Gonzalez, 545 U.S. at 535. Finally, the Court in Gonzalez held “that a Rule
60(b)(6) motion in a § 2254 case is not to be treated as a successive habeas petition if it does not
assert, or reassert, claims of error in the movant’s state conviction.” Id. at 538.
Respondents contend that, in his instant motion, Petitioner seeks to reassert claims of
errors that challenge his state court conviction and not that “a defect in the integrity of the federal
habeas proceedings occurred.” In addition, they contend that the petition fails to present
“extraordinary circumstances” that would justify relief. Finally, they argue that the only new
issue is the affidavit from his PCRA attorney, but that this does not change the fact that he is
challenging this Court’s previous resolution of his claims on the merits. Respondents argue that
Petitioner’s reference to Martinez v. Ryan, 566 U.S. 1 (2012), is irrelevant because Martinez
provides a means to excuse procedurally defaulted claims but the Court addressed his claims on
the merits.
The Court of Appeals has held that the jurisprudential change rendered by Martinez,
without more, does not entitle petitioners to Rule 60(b)(6) relief. Cox v. Horn, 757 F.3d 113,
124 (3d Cir. 2014). Rather, “what must be shown are extraordinary circumstances where,
without such relief, an extreme and unexpected hardship would occur.” Id. at 115 (quotation
omitted).
5

Case 2:16-cv-00796-RCM Document 59 Filed 06/05/18 Page 6 of 7

The court further stated that:
A court need not provide a remedy under 60(b)(6) for claims of dubious merit that
only weakly establish ineffective assistance by trial or post-conviction counsel.
Furthermore, courts must heed the Supreme Court’s observation—whether
descriptive or prescriptive—that Rule 60(b)(6) relief in the habeas context,
especially based on a change in federal procedural law, will be rare. Gonzalez [v.
Crosby], 545 U.S. [524,] 535-36 & n. 9, 125 S.Ct. 2641 [(2005)]. Principles of
finality and comity, as expressed through AEDPA and habeas jurisprudence,
dictate that federal courts pay ample respect to states’ criminal judgments and
weigh against disturbing those judgments via 60(b) motions. In that vein, a district
court reviewing a habeas petitioner’s 60(b)(6) motion may consider whether the
conviction and initial federal habeas proceeding were only recently completed or
ended years ago. Considerations of repose and finality become stronger the longer
a decision has been settled. See id. at 536-37, 125 S.Ct. 2641 (cautioning against
60(b)(6) relief in “cases long since final” and “long-ago dismissals”); id. at 542 n.
4, 125 S.Ct. 2641 (Stevens, J., dissenting) (“In cases where significant time has
elapsed between a habeas judgment and the relevant change in procedural law, it
would be within a district court’s discretion to leave such a judgment in repose.”)
Id. at 124-25.
Petitioner was convicted on two charges on June 13, 2012, Martinez was decided on
March 20, 2012, and Petitioner did not make his Martinez argument until he filed his request to
expand the record at the Court of Appeals on September 21, 2017. Given these dates,
considerations of repose and finality are strong. In addition, the procedural arguments do not
constitute the “extraordinary circumstances” to warrant equitable relief under Rule 60(b).
Finally, and as noted above, the Court reached the merits of Petitioner’s claims and did not just
reject them on procedural grounds, thus it is irrelevant that his PCRA counsel concedes his
ineffectiveness to support Petitioner’s argument to excuse the procedural default.
In conclusion, Petitioner has presented a veiled attempt at a second habeas corpus petition
rather than a true Rule 60(b) motion. This Court is without jurisdiction to consider it.
6

Case 2:16-cv-00796-RCM Document 59 Filed 06/05/18 Page 7 of 7

AND NOW, this 5th day of June, 2018,
IT IS ORDERED that the motion for relief from judgment filed by Petitioner (ECF No.
47) is dismissed and, because reasonable jurists could not conclude that a basis for appeal exists,
a certificate of appealability is denied.
IT IS FURTHER ORDERED that, pursuant to Rule 4(a)(1) of the Federal Rules of
Appellate Procedure if Petitioner desires to appeal from this Order he must do so within thirty
(30) days by filing a notice of appeal as provided in Rule 3, Fed. R. App. P.

s/Robert C. Mitchell__________________
ROBERT C. MITCHELL
United States Magistrate Judge
cc:

Vito Pelino
KP-4339
SCI Greene
175 Progress Drive
Waynesburg, PA 15370

7

APPENDIX C:
Petitioner’s Brief In Support of Rule 60(b) Motion,
Pelino v. Gilmore, Case. No. 16-796, Doc. 48 (W.D. Pa. Mar. 5, 2018)

Case 2:16-cv-00796-RCM Document 48 Filed 03/05/18 Page 1 of 10

Case 2:16-cv-00796-RCM Document 48 Filed 03/05/18 Page 2 of 10

Case 2:16-cv-00796-RCM Document 48 Filed 03/05/18 Page 3 of 10

Case 2:16-cv-00796-RCM Document 48 Filed 03/05/18 Page 4 of 10

Case 2:16-cv-00796-RCM Document 48 Filed 03/05/18 Page 5 of 10

Case 2:16-cv-00796-RCM Document 48 Filed 03/05/18 Page 6 of 10

Case 2:16-cv-00796-RCM Document 48 Filed 03/05/18 Page 7 of 10

Case 2:16-cv-00796-RCM Document 48 Filed 03/05/18 Page 8 of 10

Case 2:16-cv-00796-RCM Document 48 Filed 03/05/18 Page 9 of 10

Case 2:16-cv-00796-RCM Document 48 Filed 03/05/18 Page 10 of 10

APPENDIX D:
Application for Certificate of Appealability in
Pelino v. Gilmore, Case No. 17-2717 (3d. Cir. Aug. 31, 2017)

APPENDIX E:
Pelino v. Gilmore, Case No. 2:16-CV-796 (W.D. Pa. Jul. 6, 2017)

Pelino v. Gilmore, Slip Copy (2017)

2017 WL 2880894
Only the Westlaw citation is currently available.
United States District Court,
W.D. Pennsylvania.
Vito PELINO, Petitioner,
v.
Robert GILMORE, et al., Respondents.
2:16-cv-796
|
Signed 07/06/2017
Attorneys and Law Firms
Chris Rand Eyster, Pittsburgh, PA, for Petitioner.
Rusheen R. Pettit, Office of the District Attorney,
Pittsburgh, PA, for Respondents.
Opinion
MEMORANDUM and ORDER
Robert C. Mitchell, United States Magistrate Judge
*1 Vito Pelino by his counsel has presented an amended
petition for a writ of habeas corpus (ECF No.17). For
the reasons set forth below, the petition will be dismissed,
and because reasonable jurists could not conclude that a
basis for appeal exists, a certificate of appealability will be
denied.
Pelino is presently serving a sentence of life imprisonment
plus an additional one to two year sentence imposed
following his convict by a jury of first degree murder and
abuse of a corpse. This sentence was imposed on June 13,
2012 at No. CP-02-2578-2011 in the Court of Common
Pleas of Allegheny County, Pennsylvania. 1 An appeal
was taken to the Superior Court of Pennsylvania in which
the issues presented were:
The trial court committed reversible error when it did
not declare a mistrial after Commonwealth witness
Corey Roberts testified that he and Pelino talked about
killing someone else before and exacerbated the error
by highlighting it to the jury with an unrequested
cautionary charge.

The trial court erred in not giving the heat of passionvoluntary manslaughter charge.
The trial court committed reversible err[or] in admitting
into evidence and displaying to the jury unnecessary
gruesome color photos of body parts of the deceased. 2
The judgment of sentence was affirmed on August 27,
2013 and review was not sought from the Pennsylvania
Supreme Court. 3
A timely post-conviction petition was filed on July 17,
2014. The latter petition was dismissed without a hearing
on March 31, 2015 4 and an appeal was filed in which the
issue raised was:
The trial court erred in dismissing
the PCRA petition without a
hearing where petitioner made
a clear showing that several
allegations of ineffective assistance
of counsel raised a genuine issue of
fact which, if resolved in his favor,
would have entitled him to relief. 5
On October 14, 2015 the judgment of sentence was
affirmed. 6 Leave to appeal to the Pennsylvania Supreme
Court was denied on April 12, 2016. 7 The instant petition
was filed on June 14, 2016 and amended on November 30,
2016 (ECF No.17). The Commonwealth concedes that the
petition here is timely. 8
In his amended petition, Pelino claims he is entitled to
relief on the following grounds:
1. Trial counsel was ineffective in a. Failing to move for
severance;
b. Failing to prepare petitioner to testify;
c. Failing to call certain fact and character witnesses;
d. Failing to present evidence of self-defense;
e. Failing to object to prosecutor's prejudicial
remarks in her closing, and
f. Violating petitioner's right to a public trial.

© 2018 Thomson Reuters. No claim to original U.S. Government Works.

1

Pelino v. Gilmore, Slip Copy (2017)

2. Petitioner was denied an evidentiary hearing on
ineffective assistance of trial counsel.
3. Post-conviction counsel was ineffective for failing to
properly raise petitioner's post-conviction claims and
effectively argue these claims on appeal. 9
*2 The background to this prosecution is set forth in the
October 14, 2015 Memorandum of the Superior Court:
On the evening of February 12, 2011, [the victim] was
socializing with a group of friends at a bar.... Later
that night [the victim] met [Appellant's sister, N.T.].
[N.T.] had come to the bar with [Appellant] after getting
off work and having several drinks[.] ... [The victim]
and [N.T.] talked, danced and drank for a couple of
hours.... [Around 2:00 on February 13 th , the victim's
friend drove the victim] and [N.T.] to [N.T.'s] residence
and returned to the bar.... [Appellant had] agreed to
provide [the victim] with a ride home from [N.T.'s
residence] after he took [his friend, Corey] Robert home
[because the victim and Appellant] resided [in the same
community].
[Appellant] arrived at [N.T.'s] residence at
approximately 3:00 a.m. and the three of them drank
and talked amicably inside. [The victim] at some point
excused himself to use the bathroom and [N.T.], by
that time intoxicated and tired, told [Appellant] that
she needed [the victim] to be out of the residence
because her boyfriend would be coming home soon.
[Appellant] informed [the victim] of the circumstances,
and although [the victim] had been excited about
the potential of “hooking up” with [N.T., Appellant]
persuaded [the victim] to leave with him.
[Appellant] and [the victim] left and drove into [their
community] in [Appellant's] vehicle. During the ride
[the victim] began talking about [N.T.] in a manner
that [Appellant] perceived as disrespectful.... A verbal
argument ensued and [Appellant] stopped the vehicle
[and] the argument escalated between the two men.
[Appellant] then grabbed a knife that he had beside the
driver's side door and began to stab [the victim].
[Appellant] inflicted 72 stab and incised wounds on [the
victim], stabbing him until he was certain [the victim]
was dead. Many of the incised wounds were defensive
wounds to [the victim's] hands; and the most lethal

wounds were stab wounds to [the victim's] neck, which
transected his left carotid artery and perforated his
trachea, as well as a stab wound to the back which
penetrated his lung.
... [Appellant] drove home to his apartment ... which
was across the street from his mother's home. He parked
his vehicle in the back of his mother's house and pushed
[the victim's] body onto the back seat. [Appellant] went
into his apartment and retrieved a black bed sheet, and
returned to the vehicle to cover up [the victim's] body.
[Appellant] returned to his apartment, showered,
discarded his blood soaked clothing and unsuccessfully
attempted to contact Corey Robert to solicit his advice
and aid [ ].... [T]hat evening [Appellant] contacted
Corey Robert and told him he needed his help....
[Appellant] picked Robert up [and the two men went]
to the basement of [Appellant's] mother's home. As they
entered the basement, [Appellant] told Robert that he
‘killed that guy last night’, and asked Robert if he saw
a sign above the door that stated, ‘dead nigger storage.’
Once they got into the basement, [Appellant] showed
Robert a garbage bag, and a large blanket which
was tied into a knotted packing layer in a puddle of
blood. Both the garbage bag and the blanket contained
dismembered body parts of [the victim]. [Appellant]
acknowledged that he had cut [the victim] up with
a saw and put the parts in the garbage bag and
blanket. [Appellant] had cut [the victim] into six parts:
head, torso, two arms, and two legs. [Appellant] had
discarded the knife he used to stab [the victim] and
the saw he used to dismember him into the nearby
Allegheny River.
*3 [Appellant] and Robert loaded[ the victim's]
dismembered body into [Appellant's] vehicle.
[Appellant] drove to a remote and heavily wooded
area ... where they loaded the garbage bag and bed
sheet into a discarded wheel barrow.... They traveled
on a path approximately 100 yards into the woods
to the edge of a hillside where [Appellant] pulled out
the dismembered body parts [from the garbage bag
and bed sheet], took off any remaining clothing, and
[he] and Robert threw the body parts over [a hillside].
[Appellant] gathered up the clothing, garbage bag and
bed sheet and they returned to [Appellant's apartment]
where they parted company....

© 2018 Thomson Reuters. No claim to original U.S. Government Works.

2

Pelino v. Gilmore, Slip Copy (2017)

A missing person's investigation ... led the police to
interview Cor[e]y Robert. Robert eventually gave police
a detailed account of the events on February [13 th ] and
took police to the wooded area where the dismembered
body of [the victim] was recovered.
[Appellant] was arrested[.]. 10
Petitioner's first contention is that trial counsel
was ineffective in several respects. In Strickland v.
Washington, 466 U.S. 668 (1984), the Supreme Court
explained that there are two components to demonstrating
a violation of the right to the effective assistance of
counsel. First, the petitioner must show that counsel's
performance was deficient. This requires showing that
“counsel's representation fell below an objective standard
of reasonableness.” Id. at 688; see also Williams v. Taylor,
529 U.S. 362, 390-91 (2000). Second, under Strickland,
the defendant must show that he was prejudiced by
the deficient performance. “This requires showing that
counsel's errors were so serious as to deprive the defendant
of a fair trial, a trial whose result is reliable.” Strickland,
466 U.S. at 687, 104 S.Ct. 2052. To establish prejudice,
the defendant “must show that there is a reasonable
probability that, but for counsel's unprofessional errors,
the result of the proceeding would have been different.
A reasonable probability is a probability sufficient to
undermine confidence in the outcome.” Id. at 694. The
Strickland test is conjunctive and a habeas petitioner must
establish both the deficiency in performance prong and the
prejudice prong. See Strickland, 466 U.S. at 687; Rainey
v. Varner, 603 F.3d 189,197 (3d Cir. 2010) cert. denied 131
S.Ct. 1673 (2011). As a result, if a petitioner fails on either
prong, he loses. Rolan v. Vaughn, 445 F.3d 671 (3d Cir.
2006).
In this regard, petitioner's first issue is that counsel
was ineffective for failing to move for severance of
the homicide and abuse of a corpse charges. 11 When
called upon to review this allegation, the Superior Court
observed that beyond the “bald” allegation, petitioner
never developed his argument and for this reason, the
“claim is waived” 12 and for this reason procedurally
defaulted here. In Coleman v. Thompson, 501 U.S.
722,750 (1991), the Court held:
In all cases in which a state
prisoner has defaulted his federal

claims in state court pursuant
to an independent and adequate
state procedural rule, federal habeas
review of the claims is barred unless
the prisoner can demonstrate cause
for the default and actual prejudice
as a result of the alleged violation
of federal law, or demonstrate that
failure to consider the claim will
result in a fundamental miscarriage
of justice.
Rule 563 Pa. R.Cr.P. provides that:
Two or more offenses ... may be charged in the same
information if:
*4 (1) The evidence of each of the offenses would be
admissible in a separate trial for the other and is
capable of separation by the jury so that there is no
danger of confusion; or
(2) The offenses charged are based on the same act or
transaction...
As a matter of state procedural law the joinder of the
offenses for trial is not appropriately addressed in a
federal petition. Swarthout v. Cooke, 131 S.Ct. 859 (2011).
For this reason, counsel cannot be deemed to have been
ineffective for failing to raise a meritless claim. Real v.
Shannon, 600 F.3d 302, 310 (3d Cir. 2010). 13 Thus, the
claim is without merit.
Pelino's second issue is that counsel was ineffective by
failing to prepare him to testify. While raised in the postconviction appeal, the Superior Court deemed the issue
waived and thus it is defaulted here. 14
Nevertheless, at trial petitioner testified that he acted in
self-defense. 15 Specifically, he testified that on February
11, 2011 he was at Cheers bar with his friend Corey, his
sister and an individual known as C.J. (TT.374); that after
two drinks they went to the Hula bar at around 10 p.m.
(TT.376); that they were drinking when they encountered
the victim who was a stranger to them (TT.376-377, 395);
that his sister left the bar prior to 1:30 a.m. and texted
him to meet her and some friends at her house for a drink
(TT. 378); that when he arrived at his sister's the victim
was there (TT.379); that his sister informed him that

© 2018 Thomson Reuters. No claim to original U.S. Government Works.

3

Pelino v. Gilmore, Slip Copy (2017)

the victim had to leave her apartment before her fiancé
returned home (TT.380-381); that the victim and he left
his sister's house and drove away in his car (TT.382); that
the victim made comments about “trying to hit” on his
sister (TT.384, 397); that he stopped driving to remove the
victim from his car (TT.385); that things became heated
(TT. 387); that the victim punched him and had a knife
(TT.387); that he was cut with the knife (TT.387-398); that
he grabbed the knife from the victim and as he drew his
arm back he hit the victim with the knife (TT. 388-389,
399); that acting out of panic he continued to inflict stab
wounds on the victim (TT. 389, 400, 414, 410); that he did
not report the incident to the police because he believed
they would not believe his version of events (TT. 390);
that he drove to his apartment and parked his vehicle
behind his mother's house where he pushed the body
onto the back seat and covered it with a sheet (TT. 391,
401, 403); that he went to his apartment and showered
and changed his clothes (TT. 391); that he subsequently
borrowed his mother's car and went to visit his young
children and returned home at about 3:00 p.m. (TT. 393);
that he replaced his rear car seats and dismembered the
victim (TT. 394); that he threw both the knife and the saw
used to dismember the victim into the river (TT. 397); that
he did not carry a knife in his car (TT. 404); that based on
other evidence it appeared that he had stabbed the victim
72 times (TT. 411); that once he had secured the knife he
did not realize that the victim was defenseless (TT. 413)
and that after he inflicted the first stab wound, the victim
was not resisting his attacks (TT. 414-416).

ineffective in failing to call Cydney DeDominicis to
testify to rebut the trial testimony of the Commonwealth's

*5 Even if not procedurally defaulted, this claim is
meritless. The essence of his argument here is that
counsel both failed to prepare him and failed to call
character witnesses to testify in his behalf. Based on
the petitioner's own testimony which corroborated the
testimony presented at trial, the only issue was one
of credibility, an issue which is solely entrusted to the
fact finder and presumed correct, 28 U.S.C. § 2254(e)
(1); Roland v. Vaughn, 445 F.3d 671 (3d Cir. 2006),
and deference is accorded to those findings. Felkner v.
Jackson, 131 S.Ct. 1305 (2011). Thus, there is no basis
to conclude that counsel was ineffective in preparing
petitioner to testify.

In a similar manner, petitioner argues that counsel was
ineffective in failing to call his car mechanic to testify
although counsel was aware that the mechanic “would
have testified that ... [the automatic door unlock] was
not working at the time of the incident, meaning that

Petitioner next contends that counsel was ineffective for
“failing to call certain fact and character witnesses”
in defense and failing to offer self-defense evidence.
Specifically, petitioner contends that counsel was

primary witness Corey Robert. 16 In reviewing this
issue, the Superior Court wrote, “neither DeDominicis'
statement nor Appellant's PCRA petition set forth
evidence to demonstrate that trial counsel knew or should
have known of this witness, or the substance of her
testimony.” 17 Thus, there is no basis to support the claim
or ineffectiveness.
Petitioner also contends that trial counsel was ineffective
in failing to call Sarah Mattern who would have testified
about how “she bandaged [petitioner's] hands after the
killing ...” (See: Affidavit of Sarah Mattern, attached to
PCRA petition (Ex. 6 to the answer)(“I don't remember
what day it was but Vito came over ... and he had duck
tape on his hand. I yelled at him and told him he needs
to clean it and put a band aide on it. So I cleaned it and
wrapped it up ...”)). This, petitioner contends, would have
corroborated his claim that he acted in self-defense. In
reviewing this contention, as noted above, the Superior
Court determined that petitioner failed to present any
evidence that trial counsel was aware of these witnesses at
the time of trial. 18 This factual determination is entitled
to a presumption of correctness, 28 U.S.C. § 2254(e)(1);
Burt v. Titlow, 134 S.Ct. 10 (2013), and there is nothing
in the record to dispute this finding. Accordingly, counsel
cannot be deemed to have been ineffective in failing to call
upon Mattern to testify.

Appellant's car doors had to be unlocked manually.” 19
As the Superior Court wrote, this testimony, if presented,
would have warranted a conclusion not that the
petitioner could have escaped because the doors were
permanently locked but only that the doors would
have had to be manually unlocked as opposed to
unlocking automatically. 20 This testimony would not
have demonstrated an inability to escape, and thus not
bolstered petitioner's claim of self-defense. Accordingly,
counsel cannot be deemed to have been ineffective in
failing to raise the issue.

© 2018 Thomson Reuters. No claim to original U.S. Government Works.

4

Pelino v. Gilmore, Slip Copy (2017)

*6 Petitioner next argues that counsel was ineffective
in failing to object to the prosecutor's closing argument
in which she described the petitioner as a “cold-blooded
killer.” In this regard, in her closing the prosecutor argued:
Ladies and gentlemen of the jury,
you have to ask yourself what kind
of person can stab another human
being 72 times and then dismember
his body with a saw and snap his
bones and then throw away his body
like a piece of trash. I submit to you
that the evidence that we showed to
you would say a cold-blooded killer,
Vito Pelino. (TT. 431).
She continued:
When you were listening to him yesterday you have to
ask yourself—you listened to his voice and watched his
demeanor. He didn't once say that he was remorseful or
sorry for what he did. It was all about me, me, me. I
didn't want to get in trouble. I didn't want the police to
find out. I didn't want this, I didn't want that, not poor
William King.
He said that he had no good reason for taking him back
to his mother's basement after he let William King lay
in his car, by the way, and play with his kids. Does
that sound like someone that is panicked? Someone who
panicked doesn't leave a dead body in their car and go
play with their children and later that night get the saw
out and dismember a human body into six pieces cutting
his head and arms and legs. I don't say this to upset
you but this is the evidence that Vito Pelino provided
us with. I didn't want to show you those pictures. He
took him and threw him away like trash. He said I had
to dismember William King's body to hide it in different
places so it wouldn't be found. I asked him if that is
the reason, why did you put his body in one place? He
remembered he couldn't answer that question. I submit
because he is a cold-blooded person who enjoyed what
he did after he killed William King. (TT. 435-436).
Petitioner now claims that counsel was ineffective in
failing to object to this closing. In Greer v. Miller, 483
U.S. 756,765 (1987) the Court wrote that to justify relief,
the prosecutor's closing argument had to “so infect[t] the
trial with unfairness as to make the resulting conviction a
denial of due process.” That is, the remark must have been

so prejudicial as to violate due process. Werts v. Vaughn,
228 F.3d 178, 198 (3d Cir. 2000). After hearing the
factual testimony including that of the petitioner wherein
he corroborated the gruesome facts but challenged the
motive, the prosecution's referencing the crime as a “coldblooded” event is more than supported by the record.
For this reason, there was no basis for counsel to object,
and counsel cannot be deemed to have been ineffective
in failing to raise a meritless objection. Real v. Shannon,
supra.
Petitioner next argues that counsel was ineffective in
failing to assert the petitioner's right to a public
trial. Specifically, petitioner contends that counsel was
ineffective when he informed petitioner's mother's fiancé,
Natalia, “that jury selection ‘wasn't open to the public
and you don't need to be there.’ ” 21 There is no doubt
that with only very narrow circumstantial exceptions
the jury selection process is open to the public. Presley
v. Georgia, 558 U.S. 209 (2010). However, the Natalia
affidavit executed on November 14, 2016 never surfaced
before the amended federal petition was filed, and for this
reason could not have been considered by the state courts.
What was a part of the record before the Superior Court
in the post-conviction appeal was that “the eight witness
affidavits attached to Appellant's PCRA petition make no
mention of being excluded from jury selection by either
trial counsel or the trial court.” 22 Thus, this filing arose
long after the trial and is not properly considered here.
Cullen v. Pinholster, supra. For this reason counsel cannot
be deemed to have been ineffective for failing to raise a
non-existent issue. Real v. Shannon, supra.
*7 In Weaver v. Massachusetts, 582 U.S. (2017), the
Court wrote:
When a defendant first raises the closure in an
ineffective assistance claim, however, the trial court is
deprived of the chance to cure the violation either by
opening the courtroom or by explaining the reasons for
the closure...
[A] different standard for evaluating a structural error
[exists] depending on whether it is raised on direct
review or raised instead in a claim alleging ineffective
assistance of counsel (Slip Opinion at pp.13-14).
In the present case, like in Weaver, the structural error
was not raised until the post-conviction proceedings, and

© 2018 Thomson Reuters. No claim to original U.S. Government Works.

5

Pelino v. Gilmore, Slip Copy (2017)

the burden of demonstrating prejudice then falls on the
petitioner. In the present case, the petitioner has clearly
failed to meet this burden since he has not made any
demonstration arising from this exclusion based on the
advice of trial counsel.
Petitioner next contends that he was impermissibly denied
a hearing on his claim of ineffective assistance of counsel.
As noted above his claims of ineffective assistance are
meritless, nevertheless as a matter of state procedural law,
it is not a matter properly raised in a federal proceeding.
Swarthout v. Cooke, surpa. Additionally, we observe that
the decision of whether or not to hold a hearing on a postconviction petition rests with the sound discretion of the
court. Pa.R.Crim.P. 909(B)(2).
Petitioner's final argument is that post-conviction counsel
was ineffective in failing to adequately present and argue
his post-conviction claims on appeal. As a general rule,
“the ineffectiveness or incompetence of counsel during
Federal or State collateral post-conviction proceedings
shall not be ground for relief in a proceeding arising
under section 2254.” 28 U.S.C. § 2254(i). An exception
arises under the holding in Martinez v. Ryan, supra.
which held that in states like Pennsylvania where claims
of ineffective assistance of trial counsel cannot generally
be raised until the post-conviction proceedings, postconviction counsel may be deemed ineffective for failing
to raise those claims. Such is not the case here as the
opinion of the Superior Court clearly reflects that the
claim of ineffective assistance was raised during the postconviction proceedings where the questions presented

to the Court “where [Appellant] raised several genuine
issue[s] of fact[ ] regarding ineffective assistance of trial
counsel ...” (Ex. 11 p.5). For this reason this final
allegation here is likewise without merit.
Because the petitioner has failed to demonstrate that
his conviction was secured in any manner contrary
to, or involved an unreasonable application of, clearly
established Federal law, as determined by the Supreme
Court of the United States, 28 U.S.C. § 2254(d)(1), he is
not entitled to relief here.
Accordingly, the petition of Vito Pelino for a writ of
habeas corpus will be dismissed, and because reasonable
jurists could not conclude that a basis for appeal exists, a
certificate of appealability will be denied.
An appropriate Order will be entered.

ORDER
*8 AND NOW, this 6 th day of July 2017, for the reasons
set forth in the foregoing Memorandum, the amended
petition of Vito Pelino (ECF No. 17) is dismissed, and
because reasonable jurists could not conclude that a basis
for appeal exists, a certificate of appealability is denied.

All Citations
Slip Copy, 2017 WL 2880894

Footnotes

1
2
3
4
5
6
7
8
9
10
11
12

See: Petition at ¶¶ 1-6.
See: Exhibit 4 to the answer.
See: Petition at ¶ 9.
Id. at ¶ 11.
See: Exhibit 10B to the answer.
See Exhibit 11 to the answer.
See: Exhibit 9 to the answer at p.3.
See: Answer at p.9.
See: Petition at ¶ 12.
See: Exhibit 11 to the answer at pp.1-3.
This issue is raised as a claim of ineffective assistance of post-conviction counsel for failing to raise the issue of trial
counsel's ineffectiveness for failing to move for severance. See: Martinez v. Ryan, 566 U.S. 1 (2012).
See: Exhibit 11 at p.12.

© 2018 Thomson Reuters. No claim to original U.S. Government Works.

6

Pelino v. Gilmore, Slip Copy (2017)

13
14
15
16
17

18
19
20
21
22

We note parenthetically that even if the abuse charge had been severed for trial, it is difficult to conceive of how the
homicide trial could have gone forward without the jury becoming aware of the gruesome details of the killing and
dismemberment.
See: Exhibit 11 to the answer at pp. 9-10.
All record references marked “TT” refer to the transcript of the trial held from March 13, 2012 through March 15, 2012.
See: Petitioner's brief (ECF No.30) at p.13.
See: Exhibit 11 at pp. 17-18. We observe that attached to the petition is a December 11, 2013 affidavit of DeDominicis
which was not before the trial or appellate courts. Cullen v. Pinholster, 131 S.Ct. 1388, 1399 (2011)(“state court decisions
are measured against this Court's precedents as of ‘the time the state court renders its decision.’ ”). In her December 11,
2013 statement which was available to the post-conviction courts, DeDominicis refers to petitioner's “caring personality”
and the fact that Corey had “lie[d] to many people in order to get what he wanted and to stay out of trouble.” (Ex. D to
the amended petition).
Id.
See: Exhibit 11 to the answer at p.16.
Id.
See: Affidavit of Domenic Natalia which appears as Exhibit C to the amended petition.
See: Exhibit 11 to the answer at pp.20-21.

End of Document

© 2018 Thomson Reuters. No claim to original U.S. Government Works.

© 2018 Thomson Reuters. No claim to original U.S. Government Works.

7

APPENDIX F:
Notice of Intention to Dismiss Pursuant to Pa. R. Crim. P. 907,
Filed on Mar. 9, 2015, in Commonwealth v. Pelino, Case No. 201102578
In the Pennsylvania Court of Common Pleas

APPENDIX G:
Petition for Post Conviction Relief filed in May, 2014, in
Commonwealth v. Pelino, Case No. 201102578, Pa. Court of Common Pleas

APPENDIX H:
August 30, 2017 Sworn Affidavit Testimony of Paul Gettleman

APPENDIX I:
Dec. 11, 2013 Sworn Affidavit Testimony of Cydney DeDominicis

Case 2:16-cv-00796-RCM Document 48-1 Filed 03/05/18 Page 6 of 6

